Memorandum from the Office of the Inspector General



September 20, 2007

John E. Long, Jr., WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2007-039T-02 – BACKUP VERIFICATION



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us when final action is complete.

If you have any questions, please contact Phyllis R. Bryan, Project Manager, at
(865) 632-4043 Jill M. Matthews, Director, Information Technology Audits, at
(865) 632-4730. We appreciate the courtesy and cooperation received from your
staff during the audit.




Ben R. Wagner
Deputy Inspector General
ET 3C-K

PRB:SDB
Attachment
cc (Attachment):
      Steven A. Anderson, SP 5A-C
      William R. Brandenburg, Jr., MP 2B-C
      Frank A. Foster, OCP 2C-NST
      Tom D. Kilgore, WT 7B-K
      Janice W. McAllister, EB 7A-C
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      E. Wayne Robertson, SP 5A-C
      OIG File No. 2007-039T-02
   BACKUP VERIFICATION
OF TVA PRODUCTION SYSTEMS

      Audit 2007-039T-02
      September 20, 2007
Synopsis
        In summary, we found:
           –   All but 20 production distributed servers, all production databases, and the mainframe
               were being backed up at the time of our testing. Information Services (IS) provided
               explanations and/or actions taken for the 20 servers not being backed up.
           –   Thirteen obsolete or inactive backup “policies.”1
           –   Nine servers with undocumented exclude lists.
        Based on other observations noted during the audit, we believe an overall
         process design review could facilitate a better integrated and more efficient
         backup and restore process.




   1
       Policies are rules within the software used to backup servers.

                                                                                                   2
Background

      Backup and Disaster Recovery (DR) requirements are driven by Service
       Level Agreements (SLA) negotiated between IS and Application Owners. If
       specific DR requirements are not defined, a standard schedule of a weekly
       full backup and daily incremental backups is performed on the server.
      Over the past year, TVA has experienced two backup failures (one of which
       resulted in loss of employee data and the other resulted in loss of [Redacted])
       and a “near” miss in November 2006 (backup personnel were reconciling
       client list and found one client was missing; however, no data loss occurred).
      In February 2007, TVA implemented a verification process to check weekly
       for additions and removals of servers from the backup system. The new
       matching process would not identify servers missing prior to February.
      As a resultlt off the
       A                 th PRIS b
                                 backup
                                    k ffailure
                                           il   iin M
                                                    March
                                                        h 2007
                                                          2007, the
                                                                th OIG was requested
                                                                                 t d
       to perform a full backup verification of all TVA production systems.




                                                                                     3
Objective, Scope, and Methodology

   Objective
      Verified the necessary backups were being performed on servers and related databases.
   Scope and Methodology
      Interviewed IS personnel.
      Obtained server, application, and database information from IS personnel,
       HP Service Desk, and the DBA monitor Web page.
      Obtained backup reports from IS personnel and the NetBackup Web page.
      Verified servers identified with the role of production in HP Service Desk either (1) were
       backed up or (2) were known exclusions from being backed up.
      Verified Oracle, SQL Server, and DB2 database backups to disk were also being backed
       up to tape.




                                                                                                    4
Objective, Scope, and Methodology

   Scope and Methodology (cont’d)
      Verified the frequency of backups supported the DR level assigned either to
       the server or to the applications/databases hosted on the server.
      Reviewed the NetBackup policies for full backups.
      Reviewed the reasonableness of the exclude file listing for each server.
      Fieldwork was conducted between May and August 2007.
      This audit was performed in accordance with generally accepted government auditing
       standards.




                                                                                            5
Findings
   Distributed Servers
      Of the 1,102 production servers, we determined 1,082 servers were being backed up.
      For the 20 servers which were not being backed up, IS provided the following
       explanations:
        –   Three servers had been retired but still had the role of “Production” in HP Service Desk.
        –   Three servers contained no data, thus requiring no backup.
        –   Three non-IS supported servers which were functioning as workload balancing servers did not
            contain any data. According to the Application Owner, no backups were required for these
            systems.
        –   One server was experiencing performance problems which prevented it from being backed up on
            a regular schedule. IS discontinued backups when the data from an older system was being
            converted to a storage location for review by the Business Owner. We confirmed the server
            where this data is stored was being backed up.
        –   Ten production servers (one of these is used for program development but still classified as
            “Production” in HPSD) were identified as having no defined backups. During the course of our
            audit, IS created work orders to initiate backups for these servers. IS subsequently decided to
            reassess the backup needs of these servers.




                                                                                                              6
Findings (cont’d)

   Mainframe
      We determined the mainframe was receiving scheduled backups.
   Databases
      We determined the 379 Oracle, SQL, and DB2 databases were receiving scheduled
       backups to tape.
   Backup Policies
      Policies are rules that the backup software follows when backing up servers.
       A “full” policy is used to perform a complete backup of the server. We identified 201 full
       policies across 20 primary backup servers. Of those policies, three were inactive and
       ten were obsolete. IS plans to remove the obsolete policies.
   Exclude Lists
      Exclude lists define files and/or directories that will not be backed up on a server. Our
       understanding is groups other than the Backup Group (i.e., System Administrators) have
       the ability to make changes to the exclude list. For nine servers, IS did not have
       supporting documentation for the exclusions.



                                                                                                7
Other Observations
      We believe management should consider an overall process design review
       to develop a better integrated and efficient backup and restore process.
       The review should address issues previously found in OIG audits, Summary
       of Aggregated Gap design control deficiencies (such as backup verification,
       controls implemented as a result of the backup failures), and the following
       observations:
         –   There appears to be a lack of integration/communication between the groups with
             key responsibilities in the backup process.
         –   Multiple Service Levels (4) and DR Classes (4) may be contributing to a more
             complex environment than necessary.
                 Customers have been able to choose a wide variety of combinations between service
                  levels and DR classes (16 total combinations).
                 IS has not yet synchronized applications and data based on service levels and DR
                  classes (i.e., many database instances have data for applications that have two or more
                  service levels).
         –   Server roles were not always accurate in HPSD – three servers classified as
             production were actually retired.




                                                                                                            8
Recommendations
   We recommend the Chief Administrative Officer and Executive Vice
   President, Administrative Services:
    1. Ensure the exclude lists are reviewed for appropriateness. Additionally, a
       process should be developed to ensure all requests for (a) addition to and/or
       (b) deletion of files to be backed up are properly documented, reviewed, and
       approved.
    2. Consider initiating a business process review to develop a better integrated
       and more efficient backup and restore process.




                                                                                       9
Recommendations (cont’d)

   TVA Management’s Comments – The Chief Administrative Officer and
   Executive Vice President, Administrative Services, agreed with our facts,
   conclusions, and recommendations and provided proposed actions to implement
   our recommendations. TVA management plans to (1) initiate periodic reviews of
   the backup schedules and exclude lists; (2) document procedures to maintain
   the exclude lists; and (3) initiate a process redesign to improve the backup
   process (see Appendix for entire response).
   Auditor’s Response – We concur with management’s proposed actions.




                                                                              10
APPENDIX
Page 1 of 4
                              Draft Audit 2007-039T-02 - Personnel Records Imaging System - Backup Verification

    Office of the Inspector General                                                                                                         Audit Report

                       Findings                              Recommended Action                             Risk                       Response
                                                                                                        Management
                                                                                                        Information
Distributed Servers
                                                     1. Ensure the exclude lists are reviewed      RMF 2007-292                 1. Concur. A periodic
                                                     for appropriateness. Additionally, a                                       review of each server’s
•    Of the 1,102 production servers, we                                                           Potential Impact: Moderate
                                                     process should be developed to ensure                                      backup schedule and
     determined 1,083 were being backed up.                                                        Likelihood: Moderate
                                                     all requests for (a) addition to and/or (b)                                exclude lists will be
                                                     deletion of files to be backed up are         Risk Rating: Moderate
                                                                                                                                performed beginning with
•    For the 20 servers which were not being         properly documented, reviewed and                                          the first quarter of FY08.
     backed up, IS provided the following            approved.                                                                  In addition, the process for
     explanation:
                                                                                                                                the maintenance of the
         •   Three servers had been retired but      2. Consider initiating a business process                                  exclude list will be
             still had the role of “Production” in   review to develop a better integrated and                                  documented and updates
             HP Service Desk.                        more efficient backup and restore                                          restricted.
         •   Three servers contained no data,        process.
             thus requiring no backup.
                                                                                                                                2. Concur. The initial
         •   Three non-IS supported servers                                                                                     process redesign will be
             which were functioning as workload                                                                                 completed by 12/15/07.
             balancing servers did not contain
             any data. According to the
             Application Owner, no backups were
             required for these systems.
         •   One server was experiencing
             performance problems which
             prevented it from being backed up
             on a regular schedule. IS
             discontinued backups when the data
             from an older system was being
             converted to a storage location for
             review by the Business Owner. We
             confirmed the server where this data
             is stored was being backed up.
         •   Ten production servers (one of these
             is used for program development but
             still classified as “Production” in
             HPSD) were identified as having no
                                                                                                                                                               APPENDIX
                                                                                                                                                               Page 2 of 4




             defined backups for these servers.
                              Draft Audit 2007-039T-02 - Personnel Records Imaging System - Backup Verification

    Office of the Inspector General                                                                                 Audit Report

                       Findings                          Recommended Action                     Risk              Response
                                                                                            Management
                                                                                            Information
              IS subsequently decided to reassess
              the backup needs for these servers.
Mainframe
•  We determined that the mainframe was
   receiving scheduled backups.

Databases
•  We determined the 379 Oracle, SQL and
   DB2 databases were receiving scheduled
   backups to tape.

Backup Policies
•  Policies are rules that the backup software
   follows when backing up servers. A “full”
   policy is used to perform a complete backup
   of the server. We identified 201 full policies
   across 20 primary backup servers. Of those
   policies, three were inactive and ten were
   obsolete. IS plans to remove the obsolete
   policies.

Exclude Lists
•  Exclude lists define files and/or directories
   that will not be backed up on a server. Our
   understanding is groups other than the
   Backup Group (i.e. System Administrators)
   have the ability to make changes to the
   exclude list. For nine servers, IS did not
   have supporting documentation for the
   exclusions.

Other Observations
•  We believe management should consider an
                                                                                                                                   APPENDIX
                                                                                                                                   Page 3 of 4




   overall process design review to develop a
                          Draft Audit 2007-039T-02 - Personnel Records Imaging System - Backup Verification

Office of the Inspector General                                                                                 Audit Report

                   Findings                          Recommended Action                     Risk              Response
                                                                                        Management
                                                                                        Information
 better integrated and efficient backup and
 restore process. The review should address
 issues previously found in OIG audits,
 Summary of Aggregated Gap design control
 deficiencies (such as backup verification,
 controls implemented as a result of the
 backup failures), and the following
 observations:
 o There appears to be a lack of
     integration/communication between
     groups with key responsibilities in the
     backup process.
 o Multiple Service Levels (4) and DR
     Classes (4) may be contributing to a
     more complex environment than
     necessary.
           Customer have been able to
              choose a wide variety of
              combinations between service
              levels and DR classes (16 total
              combinations)
           IS has not yet synchronized
              applications and data based on
              service levels and DR classes
              (i.e., many database instances
              have data for applications that
              have two or more service levels).
 o Server roles were not always accurate in
     HPSD - three servers classified as
     production were actually retired.
                                                                                                                               APPENDIX
                                                                                                                               Page 4 of 4
